upreme Court, U.S.
FILED

JUN 0 9 2021
7
SUPREME COURT OF THE UNITED STA -FRICE OF THE CLERK
No.

20-8040
New York

Michael N. Kelsey
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this'aiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

0

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

REGENED
6/9/21

JUN 1 5 2021

(Type or print) Name Matthew L. Peabody
0 Mr.

0 Ms.

OFFICE OF THE CLERK
SUPREME COURT; U.S.

0 Mrs.

Firm

St. Lawrence County District Attorney's Office

Address

4,8 Court St.

City & State

Canton, New York

Phone

315-379-2225

0 Miss

Zip 13617
Email mpeabody@stlawco.org

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
cc:

Michael Kelsey, #16A4286
Hudson Correctional - 50 East Court St.
Hudson, New York 12534

